    (
                            NATIONAL RAILROAD PA§Sl!:NGER COiu' 9UAT lON·
                                                                                                                              .   -




                                      OFFICE OF INSl'l!:CTQRGENEl~AL                                                         -,

                                     lNVES'l'IGA11VE CLOSING REl'O RT

                                                                                                    ..).."" :   ,' '';'~.,


                                                                                          ~.. ~
                                                                                      .'-       :



        TITLE : Conflict of Intel'est                   CASE NU!YiDER: 01-081          :~
                                                                                        -
                                                                                            .
                                                                                                        ~'··1

                                                                                                           .'

        DATE OF REPORT: ApriJ21,2008

        RllWOllT PREl'ARED BY: • • • • •

        Alleglltion:

                                                              .
                                                              •  had onnatiO
                                      !II~=~~:==.~reic e~i'l.e~d~h:If
                                        I!I
                                                ;l1i.'illi.th
                                                                      Il bl
                                                                             )t:n~I:!II,~::=~~
                                                                Amtrak. In April 2007,
                                                     opined that Amtrak could not

                            •r;.~;;::
                                      ::~suspected that
                                                     Later,                       ,
                                                        _ was being prollcl'ed as sllb-contmctol' on
        It proposed contract.   01 initiated an investigation on July 30, 2007.

        III'Icstiglltion:

        or conducted research and dotermined that • • • • had n b\lsincss relationship wit.h the following
        four Bons:

                . : Advisory Doard member
                         COlIsl'lltill1l Group: Prosident
                                            Clininnlln an CEO
                                                AdvisolY Board member




        _ _ told Agents thM iii March 2007, she was approached by
                                                                          1\ fIrm ill which               had a
        regarding the propriety of Amtrak doing business with _
                                    emailed           with the particulars of his relationship              and
        financial interest. _                                                                               anel
        cxplaincd that . cOllld provide services to. Amtrak in the   ~l'e!l. of bomb   prevention U'aiJling
(
        pAssenger screening_ _           offered that he was 0.11 _ s Board of Advisors and had a 1%
        interest jll the company. _          ilIformcd _             that she was -referring the matter to
    ("
         . IIIIiIIiiIwho acts as the legal a'd~js~r' te

           _        teld Agents that sh\l believed that either Weiderhejd,                     from the Office ef
          ~General, alerted _                         that using •     ¢ould be a cenfllct. . She; recallecl that
          _ w a s of tho epinion that ifherccused l~mseJffrem the nogetlatien precess and deferred to.
          a member of his staff, no. cenflict weuld exist. _explained to. Agents that that reasening is not
          the case. She explained that a cenflict weuld still exist because an unfair burden weuld be put en the
          subo.rdinate empleyee tasked with evaluating a firm in which the superior hos a financial interest.
          _stated it is llo.t even a "fine-line."

           Accerding to.           , en Aprill 0, 2007, _  met with            to. discuss the particulars
           o f ' s ~ relationship with _                  On April 16, 2007, _     sent n llIellle, outhored
           by            to. _ , which illfo.mlC~ that .could lIet bo used as an Anltrok
           centracter due to. the cenflict.

                     teld Agents t h a t _ ' s perselUlCl file did lIDt list <Uly cempanies i~ had a
          financial interest.            infDrmed            that after ho mot with           _stated
          he weuld slJl)l)u~ Ii mvised Conflict efIntcrcst disclo.sure fermte incluue two companies in wh.ich he
          had a financial interest in additien t o ..                    tha~had illitially resubmittcd
          the disclosure fefln witbJtist. listed.

(         _stated that disclesure ofan employee's interest in a c~es not make it acceptable for
          the Co.lnI'<U1Y to. be used as a vendor.           opined that _             havl.ng been in high level
          gevertunent service fo.r many yelU's, would know tlus. The o.llly selution to. undo. the co.nflic~ weuld
          be fer tho employce to sever 1111 ties with the company seekJllg to. do business with Amtrak.

          In JUly 2007,             learned                that .was being listed as 1\ sub-centrnc!er in
          one 01' two pl'OposHls fo.r seC\lrity centracts.    explained that being listed as II sub-contracto.r
          is just as cenflicted as if.was the prime centractel', as long as             had an interest in the
          firm.



                    told 01 Agents that in March 2007, he was copied on an
                      The olllail was a I'CSPo.lllse:fhlm 1.1IIIi.~ol• • • •
         into. Amuak controcting with _         In the omail, _       informed
         be reviewing the multoI'.

         _metwitl_.                                 t o l d _ h a t he was seeking the Opillioilfrem the
         Law Department as a result of semeo.ne en his staft'being alorted to. a pessible conflict by n member
         of the Amtrak OW. _infenned                           that he was o.n tho Beard ef Advisors for two
         cempruues thai perferm security work. _recalled ene cempany as _                   but ceuld net recall
         the nanle of the secend finn. _ellplaincd that he did net receive cempcnsation fer sitting on


                                                            2
    ·(
           the Board ~f Ad~jsors, bllt did' receive expense reimbursemei1;' for attending Board me~fings: ' In
           addition, _            explained tha~ he has II 1% interest ill each of the companies IIlIit w()ulcl be pnld
           to hi!ll only if they were sold.                                   .
                    I                    .   '       .)              .        ;               . '         .


          _            filrther told _          that he woilid like Amtrak to contract with . ' t o perfonl1
           passenger screening and training.                told _ h a t _ was the leader in the field.
          ~!!!!!!~~iadded that 111Iother finn,          could also provide the same function. ~dvised
          _ t h a t there would be a conflict using_                              uggested that he would find II
           way to "firewall" himselffTolll the process.




                      Illet with - . who, nlong with I             opined that theto is no way to "firewall"
                            thnt IIslng .would be II conflict. _ l l s o spoko with          who concurred
          with the opinion, On April 16. 2007,_drafied a lIlemo for_ to send tol• • •
          detailing the opinion.
    (
         In Joly                                                                                       inquired if
         •     could                                            the same time as      s inquily,         received
         n call from                                        • • • • •: inquiring if_is precluded from being used
         as asub,-contfllctclr,                  Ml1telT.p n with_and the resulting opinion was that.could not
         be used as II sub-contractor,



                         pcr,sonnelflle rcvcnled a Certificate of Compliance-Conflict oflntcrest fomllistins • •
                                                                            as firms ill which _ h a s II
         """"",,",I'elationshlp. Tho fOfm was .                             dated May 8, 2007. Tile f01'1I1 was
         signed by Allltrak President Alex Klll11l11al1t 011 May 14, 2007 .

                 .Contract RtiSCIll'ch

         01 met with _        and researched all proposed and existing Security Contracts and discovered t.hat
         two submissions to Request for Proposals ("RP.t's") included _ris n proposed sub-contractor. The
         RFPs are described liS follows:

                 1) RFP #_[01' Sec\II'ity Training Needs Assessment. The proposal was subrititted
                    by _   Oil July 6. 2007. The two sub·contractors listed were _       .
(

                                                                3
           'i) lUIP#            . fOl'EmergencyOpetatiolis.PJ~is. 'ilt~posalwassub;mttedb.
               Oll July 18, 2007. The two sub-colltractorslisted were_and I f "
                                    .                        .                                '




           ; _Separadoll OfEmplqymellt .

     On                            s employment wlth Amtrak WftS temunated. On August 23, 2007,
                         ~~~~~~~~-:.~• • • • • •~on behalfofAmttnk, signed an
     Executive Comllullee n.e1ease         ("Agreement"). Sectlon4, l'1ITa.graphE ot'dle Agfeelllellt
     reads itlPllrt:

            " ... Amtrak hereby release and discharge                fI'om any and all liabilities and
            olaims of allY ]dnd 01' nature, known or UlI!<nOWII, that Amtrak may have had or may
            now have agains~ under allY federal, state or municipal law, including but
            not limited to, all claims for attorney's fees and dnmagos, breach of COlltl'act alld tort
            claims arising fonn Ilia employment with Amtrak."

            CnnceliatiOlI of Contracts

    Sho,rtlv after _           tenninatiol\ of employmont, 1\ new Office ofSecul'ity Suategy lIud Special
                               fonned. The Office Is headed by                                   fonl\erly
                                                          The lIew SSSO evaluated all contracts that were
                                                 tellure. All such contrllCts and RFPs were cancelled.



    _8
    Conclusion:

                tcrniination and the signed Agreement, along with the cancellntIon of ali contracts and
    proposals during _ ' s employment, was discussed wlth the Deputy Inspector
    GellcraVCounsel and ItO further action is deemed necessary


    ltecommendation:

    Tlus Case should be closed.
                                                                                           ~}
                                                    /'//./
    Deputy ll\spector GeneraVCounsel: ·-----VC4-=--j~-            =
                                                                                 ~ ~;k/~
                                                                      Date: _-"-I-~+_ _ _ _ _ __




(

                                                      4
